0

BECKER GALLAGHER
Briefs

and

DONNA J. WOLF, J.D.
JULIE

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 unbound and
40 copies of the foregoing Brief of the American Jewish
Committee and the United Synagogue of Conservative
Judaism as Amici Curiae in Support of Petitioners in
19-267, Our Lady of Guadalupe School v. Agnes
Morrissey-Berru, and 19-348, St. James School v.
Darryl Biel, as Personal Representative of the Estate of
Kristen Biel, were sent via Two Day Service to the U.S.
Supreme Court, and 3 copies were sent via Two Day
Service and e-mail to the following parties listed
below, this 10th day of February, 2020:
Eric Christopher Rassbach
The Becket Fund for Religious Liberty
1200 New Hampshire Avenue, NW
Suite 700
Washington, DC 20036
(202) 955-0095
erassbach@becketlaw.org

Counsel for Petitioners
Jennifer Anne Lipski
JML Law, A Professional Law Corporation
5855 Topanga Canyon Boulevard
Suite 300
Woodland Hills, CA 91367
(818) 610-8800
jennifer@jmllaw.com

Counsel for Respondents

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

Washington, DC 20005

A.

KERSHNER, J.D.

Michael H. McGinley
Counsel of Record
Dechert LLP
1900 K Street, NW
Washington, DC 20006
(202) 261-3300
michael. mcginley@dechert.com
Steven B. Feirson
Micah Brown
Dechert LLP
Cira Centre
2929 Arch Street
Philadelphia, PA 19104
(215) 994-4000

Counsel for Amici Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on February 10, 2020.

DonnaJ. Wolf~
~
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

Notary Public
[seal]

• .Jl!L!E ANNE l<ERSHNER
~<'J 1.~ry

Public, State of Ohio
•~ ,- C:.mHnission Expires
h,bruary 21, 2023

